Audit Report




OIG-11-106

INFORMATION TECHNOLOGY: Treasury’s Contract and Project
Management of Treasury Network (TNet) Was Poor

September 22, 2011




Office of
Inspector General
DEPARTMENT OF THE TREASURY
  Contents


Audit Report

  Results in Brief ............................................................................................. 2

  Background ................................................................................................. 6

  Finding and Recommendations ....................................................................... 8

Appendices

  Appendix 1:          Objectives, Scope, and Methodology ....................................... 18
  Appendix 2:          Management Response ......................................................... 19
  Appendix 3:          Office of Inspector General (OIG) Clarifications to Management
                       Comments and Observations.................................................. 23
  Appendix 4:          Major Contributors to This Report ........................................... 27
  Appendix 5:          Report Distribution ................................................................ 28

Abbreviations

  ATO                  authority to operate
  C&A                  certification and accreditation
  CIO                  chief information officer
  FIPS                 Federal Information Processing Standards
  GLS                  General Legal Services
  GSA                  General Services Administration
  IRS                  Internal Revenue Service
  OIG                  Treasury Office of Inspector General
  OMB                  Office of Management and Budget
  PMO                  Program Management Office
  TCE                  Treasury Communications Enterprise
  TCS                  Treasury Communications Systems
  TNet                 Treasury Network
  TIC                  Trusted Internet Connections




                       Treasury’s Contract and Project Management of TNet Was Poor                         Page 1

                       (OIG-11-106)
                                                                                       Audit
OIG
The Department of the Treasury
                                                                                       Report
Office of Inspector General

                       September 22, 2011

                       Robyn East
                       Deputy Assistant Secretary for Information Systems
                         and Chief Information Officer
                       Department of the Treasury

                       We are performing a series of audits to determine if the
                       Department of the Treasury’s implementation of the Treasury
                       Network (TNet) 1 was based on sound and effective contract
                       management, project management, security management, and
                       transition management. This report provides the results of our
                       assessment of Treasury’s TNet contract and project management.
                       We will report on the remaining objectives in future audit reports.

                       To accomplish our objectives, we reviewed and analyzed
                       documents related to contract administration and project
                       management of the TNet task order. We also interviewed Treasury
                       personnel responsible for the contract and project management of
                       TNet, and representatives of the TNet contractor, AT&T. We
                       performed our fieldwork in Washington, DC, from March 2009
                       through April 2011. Our objectives, scope, and methodology are
                       described in appendix 1.

Results in Brief
                       Based on the results of our work, we concluded that Treasury’s
                       contract and project management of TNet was poor. Specifically,
                       the TNet statement of work that was included in the task order did
                       not protect the government’s interest to obtain a timely enterprise
                       network at the least possible cost. Critical system security
                       requirements and key delivery dates were omitted from the task
                       order rendering Treasury unable to pursue reasonable remedies or
                       terminate the contract for default. Furthermore, even after delivery

1
 TNet is a wide area network that provides Treasury with e-mail, Internet, and voice traffic applications.
The TNet task order was awarded under the General Services Administration Networx universal contract
(Contract Number GS00T07NSD0007).



                       Treasury’s Contract and Project Management of TNet Was Poor                 Page 2

                       (OIG-11-106)
                       dates were subsequently incorporated in task order modifications,
                       Treasury officials still did not pursue available remedies to enforce
                       the terms and conditions of the task order, essentially assuming
                       responsibility for late delivery. Ultimately, the lack of effective
                       leadership resulted in a poorly written, poorly planned, and poorly
                       executed task order. Finally, we believe that inadequate contractor
                       performance resulted in additional costs of $33 million to
                       Treasury. 2

                       The TNet task order was awarded to AT&T on September 21,
                       2007. According to the initial TNet Transition Plan incorporated in
                       AT&T’s response to Treasury’s request for quote, implementation
                       of TNet was supposed to begin in October 2007 and be completed
                       in 9 months. However, due to a combination of AT&T and
                       government delays, implementation did not begin until August
                       2009, nearly 2 years later.

                       One of the reasons for the delay was AT&T’s submission of an
                       insufficient certification and accreditation (C&A) 3 package that was
                       rejected by Treasury and had to be resubmitted after additional
                       testing. Another delay was due to the Office of Management and
                       Budget (OMB) Trusted Internet Connections (TIC) initiative 4 , which
                       was promulgated after the date the task order was awarded, and
                       required additional features. Due to delays in transitioning to TNet,
                       OMB included TNet on its list of 26 high risk projects in 2010. 5
                       Due to several security risks that needed to be remediated, TNet


2
  Based on the data the Office of Chief Information Officer provided to us on December 24, 2009, the
expected monthly savings for transitioning from TCS to TNet was $3.7 million. We multiplied the
monthly savings of $3.7 million by 9 months (October 2008 through July 2009) to determine the
additional costs.
3
  The C&A package is a comprehensive assessment of the management, operational, and technical
security controls for a system. This information is used by officials to determine whether to authorize
operation of an information system.
4
  The TIC initiative was mandated in OMB memorandum, M-08-05, issued in November 2007. The
overall purpose of the initiative was to optimize and standardize individual external network
connections, to include connections to the Internet, currently in use by the federal government. By
reducing the number of access points, the government could more easily monitor and identify
potentially malicious traffic.
5
  High risk projects as defined in OMB Circular A-11, Part 2, Section 53: Information Technology and E-
Government (June 2008), include those projects requiring special attention from oversight authorities
and the highest levels of agency management.

                       Treasury’s Contract and Project Management of TNet Was Poor               Page 3

                       (OIG-11-106)
                       was operated under an interim authority to operate (ATO) 6 for over
                       a year and a half, and finally received a full ATO on March 23,
                       2011.

                       The reasons provided by Treasury officials for the deficiencies we
                       identified during our audit are detailed in the finding below;
                       however, we want to highlight a common theme that came out of
                       our discussions with those officials that gave us great concern.
                       Specifically, in the beginning, Treasury senior officials told us on
                       several occasions of the urgency to transition from Treasury
                       Communications Systems (TCS) to TNet. However, once the task
                       order was issued, Treasury officials were reluctant to take action
                       against the contractor for failure to meet the transition schedule. It
                       became more important to the responsible officials to keep the
                       contractor in place, regardless of the costs or consequences to the
                       government, than to take the proper steps to either obtain
                       satisfactory performance from the contractor or to terminate the
                       contract. As a consequence, we believe that not all aspects of this
                       procurement were executed properly and that unacceptable
                       shortcuts in the contracting process were taken. Obviously, the
                       lessons of the Treasury Communications Enterprise (TCE)
                       procurement failure were ignored. 7

                       We are making five recommendations to the Treasury Chief
                       Information Officer (CIO) to improve the contract and project
                       management of TNet and future information technology
                       acquisitions.

                       Management Response

                       In a written response, the Treasury CIO agreed with our
                       recommendations and provided plans for corrective actions (see
                       appendix 2). The response also stated that in pursuit of Treasury’s

6
  ATO is the official management decision given by a senior organizational official to authorize operation
of an information system and to explicitly accept the risk associated with the system’s operation. ATO
can only be granted after the authorizing official has assessed the results of the C&A package and
deemed that the risk to agency operations, agency assets, or individuals is acceptable.
7
  Audit Report OIG-06-028, Major Acquisitions: Treasury Communications Enterprise Procurement Was
Poorly Planned, Executed and Documented (February 2006), noted that poor planning and execution by
Treasury officials delayed the TCE contract and increased its costs.


                       Treasury’s Contract and Project Management of TNet Was Poor                  Page 4

                       (OIG-11-106)
goal of continually strengthening the management and oversight of
all information technology projects, TNet's management oversight
activities were placed under the Treasury Office of the CIO as of
September 29, 2010.

With respect to determining whether damages resulting from
contractor delay from October 2008 through July 2009 are legally
available, the response stated that based on an opinion from the
Internal Revenue Service (IRS) General Legal Services (GLS), it is
Treasury’s position that the government does not have a legal basis
to recover damages from AT&T for contractor delays.

With regard to implementing appropriate policies, procedures, and
controls to ensure that all prospective statements of work,
contracts or task orders, for acquisition of information systems
clearly state the appropriate Federal Information Processing
Standards (FIPS) 199 security category and specify the delivery
date of an acceptable C&A package, the response stated that such
guidance would be implemented.

Management’s response also included assurances that any future
timing modifications to the TNet task order will be specified and
damages resulting from future contractor-caused delay(s) will be
pursued.

OIG Comment

The Treasury CIO’s planned corrective actions are responsive to
our recommendations. While we understand that through
consultation between the TNet contracting officer and IRS GLS, it
was IRS GLS’s opinion that Treasury’s actions precluded it from
seeking legal remedies for contractor caused delays in the TNet
task order, we believe there may be some merit in reevaluating this
position.

Treasury’s management response also commented on several other
matters in our report. Our clarifications to the comments that
Treasury made in its management response to the draft report are
included in appendix 3.



Treasury’s Contract and Project Management of TNet Was Poor   Page 5

(OIG-11-106)
Background
                      TCS was Treasury’s telecommunications infrastructure that
                      integrated the Federal Telecommunications System 2000 8 and
                      network-based services. TCS enabled a wide range of applications
                      through independent networks to support Treasury’s mission. The
                      TCS contract was awarded on September 28, 1995, and was due
                      to expire on September 27, 2005, but out of necessity due to TNet
                      delays, was extended to September 27, 2010.

                      On May 4, 2004, Treasury issued a request for proposal for a TCS
                      replacement contract, TCE, to supply telecommunications services
                      to Treasury, including its bureaus and offices. It was envisioned
                      that TCE would enable the convergence of data, voice, and video
                      technologies into a single network infrastructure that supported the
                      operation of applications and services across the entire operating
                      environment through enterprise-wide managed services. Under
                      TCS, telecommunications equipment was contractor-maintained
                      but Treasury-owned. Under TCE, the contractor was to take title to
                      existing TCS network assets and use any equipment it considered
                      useful in providing network connectivity and management services,
                      and dispose of the remaining equipment.

                      On December 3, 2004, Treasury awarded the TCE contract to
                      AT&T. The procurement was protested by five unsuccessful
                      bidders and on March 16, 2005, the Government Accountability
                      Office issued a decision in favor of the protestors. Following a
                      comprehensive review in conjunction with the General Services
                      Administration (GSA) and OMB, Treasury reopened the TCE
                      procurement on August 15, 2005. The reopened procurement
                      included a series of solicitation amendments and four rounds of
                      discussions with the bidders, for a total of five rounds of proposal
                      submissions and evaluations.



8
  Federal Telecommunications System 2000 is the federal government’s long-distance
telecommunications program administered by the GSA. It is a private network that provides voice, data,
and video services to federal employees across the country. Treasury used Federal Telecommunications
System 2000 for all nonlocal voice services and for services mandated by Federal Information
Resources Management regulations.

                      Treasury’s Contract and Project Management of TNet Was Poor               Page 6

                      (OIG-11-106)
In a memorandum of agreement with GSA, dated December 20,
2006, Treasury agreed to procure wide area network services
under GSA’s Networx universal contract. The procurement was
called TNet. On December 21, 2006, Treasury cancelled the TCE
procurement.

On September 21, 2007, Treasury awarded the TNet task order to
AT&T. The cost for TNet was initially estimated at $270 million.
The contract cost is now estimated at $391 million. Based on
AT&T’s proposal, implementation of TNet was to have started in
October 2007. However, implementation under an interim ATO did
not start until August 2009. Furthermore, TNet did not receive a
full ATO until March 23, 2011, over a year and a half later, due to
a number of security risks that needed to be remediated.

The Treasury CIO, as the authorizing official for TNet, has the
responsibility and accountability for operating TNet at an
acceptable level of risk to Treasury operations, assets, and
individuals. As such, the CIO is responsible for approving the
security requirements for TNet.

The responsibility for managing and administering the TNet task
order was delegated to the IRS Procurement Office. Accordingly,
TNet’s contracting officer was appointed from that office. Program
oversight of the TNet contractor’s operations is performed by the
IRS Program Management Office (PMO). That office also serves as
an interface between Treasury and AT&T to monitor service level
agreements and manage invoices. Accordingly, TNet’s contracting
officer’s technical representative works out of the IRS PMO. He is
responsible for, among other things, maintaining the complete
contract working files, although he relied on other staff within the
IRS PMO to fulfill this responsibility.

Treasury bureaus provided input through the CIO Council, sub-
councils, and working groups, and served as control points for
approvals and strategic direction setting for TNet.




Treasury’s Contract and Project Management of TNet Was Poor       Page 7

(OIG-11-106)
Finding and Recommendations

Finding               Treasury’s Contract and Project Management of TNet Was
                      Poor

                       From the onset, exacerbated by a poorly written statement of
                       work, the TNet transition was plagued with contractor- and
                       government-caused delays. Among the major reasons for delay
                       was that the first C&A package for TNet that AT&T delivered on
                       December 11, 2008, failed to meet Treasury’s requirements.
                       Additional delays resulted because the statement of work lacked
                       specific critical system security requirements and did not articulate
                       due dates for key contract deliverables, like the C&A package.
                       Furthermore, when delays occurred, Treasury issued task order
                       modifications that extended deliverable dates without determining
                       whether the delays were caused by inadequate contractor
                       performance. Without making such a determination, Treasury
                       assumed all the costs for delays. Overall, we found that TNet
                       delays resulted from what we can only describe as inept leadership
                       and ineffective communication in putting together the statement of
                       work, followed by poor contract and project management. We do
                       acknowledge that one delay was attributable to OMB’s TIC
                       initiative, which was beyond Treasury’s control since it was
                       promulgated after the task order was awarded.

                       Below is a more detailed discussion of the issues we identified in
                       our review of the TNet contract and project management that were
                       within Treasury’s control.

                       Absence of Defined Security Requirements

                       The TNet statement of work did not identify the applicable security
                       category for this information system. Specifically, it did not include
                       the National Institute of Standards and Technology FIPS 199
                       security category. 9 We also noted that a shortcut was taken in
                       TNet’s statement of work, which was essentially copied from the

9
  FIPS 199, Standards for Security Categorization of Federal Information and Information Systems,
(February 2004), requires federal agencies to establish the security level of protection required for an
information system operated on behalf of or owned by the agency.

                       Treasury’s Contract and Project Management of TNet Was Poor                   Page 8

                       (OIG-11-106)
one prepared for the failed TCE solicitation which also did not
include the FIPS 199 security level.

As the TNet statement of work did not specify the FIPS 199 overall
security category, AT&T executives informed us that they assumed
that TNet’s overall FIPS 199 security category was moderate and
this was reflective in their proposal. AT&T based their assumption
on other work they had performed for Treasury. However, the
overall security category assigned to TCS, which TNet replaced,
was high. TNet was to provide Treasury with functions and
services at least equal to those provided by TCS. Accordingly, to
avoid any misunderstanding, Treasury should have ensured the
TNet statement of work clearly identified the overall security
category requirement.

Nevertheless, it was not until August 5, 2009, that the TNet task
order was modified to explicitly require a FIPS 199 overall security
category of high. Since the cost of this modification was
determined based on negotiation, rather than competition, we
believe the cost was most likely greater than it would have been
had the security requirements been included in the initial statement
of work. A former Treasury CIO agreed that a security level of high
should have been assigned before the TNet task order was
awarded to AT&T.

We could not determine whether this statement of work deficiency
was a result of lack of knowledge of the requirements of FIPS 199,
negligence, a rush to award the task order, or some other cause.
Office of CIO officials could not identify who was responsible for
the preparation of the statement of work or how this oversight
occurred. Furthermore, we could not identify any effective
Treasury policies, procedures, or controls in place to prevent this
from happening again in future information technology acquisitions.

No Delivery Date for the TNet C&A Package

Treasury did not specify the deliverable date for the TNet C&A
package in the statement of work. As a result, there was no
contractual requirement for AT&T to deliver it in a timely manner.
Until this omission was corrected by a modification to the task


Treasury’s Contract and Project Management of TNet Was Poor       Page 9

(OIG-11-106)
                       order, it could have, for all practical purposes, indefinitely delayed
                       the TNet transition because the Treasury CIO could not have made
                       an ATO determination. 10 Compounding the problem, Treasury could
                       not terminate the task order for default because there was no
                       contractual delivery date in the statement of work for the C&A
                       package. 11

                       When we spoke to Treasury officials about why the statement of
                       work lacked a delivery date for the C&A package, we were
                       informed that they believed that such a date was unnecessary
                       because the contractor had an incentive to deliver it promptly since
                       no payments would be made until TNet was fully operational.
                       However, this line of reasoning failed because it did not adequately
                       ensure that Treasury received its mission critical telecommunication
                       services in a timely manner. This was demonstrated by the fact
                       that Treasury, out of necessity, had to extend the TCS contract.

                       Therefore, until a contractual date of delivery was provided,
                       Treasury’s only options would have been to wait until the
                       contractor provided an acceptable C&A package or terminate the
                       contract for the convenience of the government. If Treasury had
                       chosen the latter option, Treasury would have had to pay for all
                       expenses incurred by the contractor at the date of termination and
                       incur the expense of reprocurement. In our opinion, neither of these
                       options were acceptable, and both would have resulted in
                       additional costs to Treasury.

                       Contracting Officer Failed to Include a Revised Timeline in
                       Modification Number 5 for TIC

                       The contracting officer failed to provide a time extension for
                       modification number 5. This modification was issued on April 23,

10
   National Institute of Standards and Technology Special Publication 800-37, Guide for the Security
Certification and Accreditation of Federal Information Systems (May 2004), states that an accrediting
official needs to review the C&A package prior to granting an ATO.
11
   Federal Acquisition Regulation 52.249-8(a)(1) is the standard "Default" clause permitting the
government to terminate a contract for default where the contractor breaches the contract. The
standard "Default" clause entitles the government to re-procure the supplies or services required under
the terminated contract, and charge the excess costs to the terminated contractor.



                       Treasury’s Contract and Project Management of TNet Was Poor               Page 10

                       (OIG-11-106)
2008, and incorporated a significant number of security changes,
which were collectively referred to as Enhanced Internet Access
Security Service. These enhancements included TIC, which
required a significant change in the planned deployment, making
the original plan of a 9-month transition from the existing contract
unrealistic. Modification number 5 did not incorporate any changes
to the schedule (i.e., a revised timeline), even though the original
schedule was no longer reasonable. Subsequently, modification 13,
which was issued on August 20, 2008, incorporated the TIC
pricing changes, however, there was still no revised timeline.

According to Federal Acquisition Regulation 52.243-1(b), if there is
a change in the contract that causes an increase or decrease in the
cost or time required to complete the work, the contracting officer
is required to make an equitable adjustment in the contract price,
the delivery schedule, or both, and modify the contract.

In this case, modification number 13 adjusted the price for the
changes reflected in modification number 5 but did not adjust the
delivery schedule. According to the contracting officer, a revised
delivery schedule should have been incorporated into the contract.
However, it was not done because of an oversight on the part of
Treasury. By issuing modification number 5 without updating the
schedule in the contract, Treasury allowed AT&T to essentially
deliver TNet on an ad hoc basis. In other words, the original
schedule was no longer valid because of the necessary additional
amount of time required for TIC implementation, and there was no
updated schedule to hold the contractor responsible.

Treasury Assumed Responsibility for TNet Contractor Delays

Treasury issued task order modifications that extended deliverable
dates without determining whether the delays were caused by
inadequate contractor performance. Without making such a
determination, Treasury essentially assumed responsibility for all
delays, regardless of who was responsible for causing them. While
one of the delays was the result of additional work needed to meet
OMB’s TIC requirement, we believe that much of the additional
delays were due to inadequate contractor performance.



Treasury’s Contract and Project Management of TNet Was Poor   Page 11

(OIG-11-106)
Based on our review of the contract files, we believe that AT&T’s
inadequate performance resulted in delays beginning in October
2008 and lasting through July 2009 (9 months). AT&T’s
performance issues resulted in increased cost to Treasury since it
was necessary to continue funding the TCS contract. Accordingly,
we believe Treasury should have assessed damages from AT&T.
The contractor-caused delays that we identified are as follows:

•   The TNet Transition Plan Version 2.0 dated August 22, 2008,
    included the C&A package deliverable date as October 21,
    2008. This transition plan initially included AT&T’s response to
    the request for quote, and all subsequent revisions were
    incorporated into the TNet task order by reference. Therefore,
    we believe, the delivery date included in the transition plan
    should have been enforceable. On October 1, 2008, AT&T
    notified Treasury that due to continued security testing at two
    major facilities, the C&A package would be delivered on
    November 14, 2008. However, the C&A package was not
    delivered to Treasury on November 14, 2008.

•   Modification number 24, issued December 18, 2008, provided
    the explicit delivery date for the C&A package on December 11,
    2008. We noted here that the modification was issued to
    require a past due date. An IRS procurement official identified 8
    previous AT&T delays since program commencement. However,
    we were surprised to find that the modification did not include
    any assessment of responsibility for previous delays. In fact, the
    supporting documentation stated, “throwing in the penalty
    language may just make this more contentious and put AT&T
    on the defensive.” Apparently, it was more important for
    Treasury to keep AT&T in place, regardless of costs or
    consequences to the government, than to take the proper steps
    to either obtain satisfactory performance from the contractor or
    to terminate the contract. Even so, AT&T did deliver a C&A
    package on the required date of December 11, 2008. On
    January 9, 2009, the contracting officer notified AT&T that an
    ATO was not granted for TNet because of an unacceptable
    number of security risks in the system, Treasury’s inability to
    confirm AT&T’s scope of testing to which the system had been



Treasury’s Contract and Project Management of TNet Was Poor    Page 12

(OIG-11-106)
    subjected, and a lack of traceability with respect to security
    testing and evaluation of the system.

•   Modification number 34, issued April 21, 2009, set July 3,
    2009, as the new deliverable date for a C&A package since the
    C&A package submitted by AT&T on December 11, 2008, was
    rejected by Treasury on January 9, 2009, due to the poor
    quality of the test results. Again, this modification did not
    contain any assessment of the delay caused by the contractor.
    Treasury simply set a new deliverable date, and AT&T
    subsequently failed to meet the July 3, 2009, date.

•   Modification number 42, issued June 15, 2009, extended the
    delivery date for the C&A package to July 22, 2009, because
    of additional delays in performing security testing and
    evaluation. And, once again, this modification did not contain
    any assessment of responsibility for not meeting the July 3,
    2009, deliverable date set in modification 34. The supporting
    documentation for this modification stated that it was issued as
    a “NO COST” modification and that the government would not
    seek any damages due to the fact that the delay was both
    contractor- and government-caused. We disagree. In a letter
    dated June 10, 2009, from AT&T Director of Contracts
    addressed to TNet’s contracting officer, AT&T took primary
    responsibility for the delay and there was no mention of the
    government’s role in the delay. This new delivery date of July
    22, 2009, set in modification 42, was met by AT&T and the
    C&A package was used as the basis for the former CIO’s
    decision to provide an interim ATO for TNet.

In summary, AT&T’s TNet Transition Plan and subsequent revisions
were included in the task order by reference, and therefore, we
believe that the C&A package submission date of October 21,
2008, specified in AT&T’s TNet Transition Plan Version 2.0, was
enforceable. Furthermore, even after the delivery dates were
explicitly established in the contract with modification number 24
and subsequently adjusted by modifications numbered 34 and 42,
Treasury did not assess any damages against AT&T for contractor-
caused delays.



Treasury’s Contract and Project Management of TNet Was Poor     Page 13

(OIG-11-106)
According to Federal Acquisition Regulation 52.243-1(b), if there is
a change in the contract that causes an increase or decrease in the
cost or time required to complete the work, the contracting officer
is required to make an equitable adjustment in the contract price,
the delivery schedule, or both, and modify the contract.

We asked the contracting officer if AT&T was responsible for any
delays. He responded that AT&T was not solely responsible for the
delays and did not think any assessment of damages was
appropriate.

We disagree. As discussed above, we believe that AT&T’s
inadequate performance resulted in additional costs of $33 million
to Treasury for extending the TCS contract.

By issuing the task order modifications that extended delivery dates
without assessing damages to the contractor, not only did Treasury
miss an opportunity for recovering some of the cost to the
government due to contractor-delays, but Treasury also may not
have future legal recourse for claiming these damages. We also
believe that by doing so, Treasury took a shortcut in order to keep
AT&T in place instead of pursuing available remedies to ensure
adequate performance. Going forward, the contracting officer must
be diligent to ensure that damages are assessed to the contractor
when the contractor has failed to perform, to include failure to
deliver in a timely manner. Furthermore, decisions not to pursue
damages should only be made when in the best interest to the
government, and should be appropriately documented and
maintained in the contract file. In instances where fault is unclear,
the contracting officer should expressly reserve the right to pursue
legal remedies when issuing modifications.




Treasury’s Contract and Project Management of TNet Was Poor   Page 14

(OIG-11-106)
Recommendations

We recommend that the Treasury CIO do the following:

1. In coordination with the contracting officer, determine whether
   damages resulting from contractor delay from October 2008
   through July 2009 are legally available and, if so, pursue them.

   Management Response

   Treasury concurred with this recommendation. The contracting
   officer consulted with the IRS GLS to determine whether
   damages are legally available to the government. Based on an
   opinion from IRS GLS dated June 8, 2011, it is Treasury's
   position that the government does not have a legal basis to
   recover damages from AT&T for contractor delays.

   OIG Comment

   Management’s corrective action is responsive to our
   recommendation. However, we believe there may be some
   merit in reevaluating IRS GLS’s position.

2. Implement appropriate policies, procedures, and controls to
   ensure that all prospective statements of work for acquisition of
   information systems clearly state the appropriate FIPS 199
   security category.

   Management Response

   Treasury concurred with this recommendation. Treasury and IRS
   plan to implement guidance that requires statements of work for
   the acquisition of information systems to clearly state the
   appropriate FIPS 199 security category, as applicable. It is
   anticipated that this corrective action will be implemented by
   May 31, 2012.




Treasury’s Contract and Project Management of TNet Was Poor   Page 15

(OIG-11-106)
   OIG Comment

   Management’s planned corrective action is responsive to our
   recommendation.

3. Implement appropriate policies, procedures, and controls to
   ensure that all prospective contracts or task orders for
   acquisition of information systems specify the delivery date of
   an acceptable C&A package.

   Management Response

   Treasury concurred with this recommendation. Treasury and IRS
   plan to implement guidance that requires all contracts or task
   orders for the acquisition of information systems to specify the
   delivery date of an acceptable C&A package, as applicable. It is
   anticipated that this corrective action will be implemented by
   May 31, 2012.

   OIG Comment

   Management’s planned corrective action is responsive to our
   recommendation.

4. In coordination with the contracting officer, ensure that all
   future modifications to the TNet task order contain time
   extensions, as appropriate, for changes in the contract
   impacting the time required to complete the work.

   Management Response

   Treasury concurred with this recommendation. The contracting
   officer, in coordination with the TNet PMO, will ensure that
   modifications to the TNet task order contain time extensions, as
   appropriate, for changes in the contract impacting the time
   required to complete the work. According to management, this
   corrective action was implemented on July 15, 2011.




Treasury’s Contract and Project Management of TNet Was Poor    Page 16

(OIG-11-106)
      OIG Comment

      Management’s reported corrective action is responsive to our
      recommendation.

5. In coordination with the contracting officer, ensure that all
   future modifications to the TNet task order assess damages
   resulting from contractor-caused delay, as appropriate.

      Management Response

      Treasury concurred with this recommendation. The contracting
      officer, in coordination with the TNet PMO and IRS GLS, will
      assess damages resulting from future contractor-caused delay(s)
      and ensure that the contract file documents the assessment and
      any potential compensation. Any resulting modification will
      include negotiated compensation, as applicable. According to
      management, this corrective action was implemented on July
      15, 2011.

      OIG Comment

      Management’s reported corrective action is responsive to our
      recommendation.

                                 ******


I would like to extend my appreciation to the Office of the CIO, the
IRS Procurement Office, and the TNet PMO for the cooperation and
courtesies extended to my staff during the audit. If you have any
questions, please contact me at (202) 927-5171 or Abdirahman
Salah, Information Technology Audit Manager, at (202) 927-5763.
Major contributors to this report are listed in appendix 3.


/s/

Tram Jacquelyn Dang
Audit Director


Treasury’s Contract and Project Management of TNet Was Poor    Page 17

(OIG-11-106)
Appendix 1
Objectives, Scope, and Methodology




The objectives of our overall audit are to determine if the
Department of the Treasury’s implementation of Treasury Network
(TNet) was based on sound and effective contract management,
project management, security management, and transition
management. This report focuses only on our assessment of
Treasury’s TNet contract and project management. We will report
the results related to the remaining objectives in future audit
reports. This audit was included in the Office of Inspector General
Annual Plan.

We reviewed and analyzed documents related to contract
administration and project management of the TNet task order
including: the statements of work, requests for quote, the
contractor’s proposals, cost and pricing information, the
contracting officer’s technical representative files, and the TNet
contract and contract modifications 1 through 50. In addition, we
interviewed Treasury personnel responsible for the contract and
project management of TNet, and management and representatives
of the TNet contractor, AT&T. We performed our fieldwork in
Washington, DC, from March 2009 through April 2011.

We conducted this performance audit in accordance with generally
accepted government auditing standards. Those standards require
that we plan and perform the audit to obtain sufficient, appropriate
evidence to provide a reasonable basis for our findings and
conclusions based on our audit objectives. We believe that the
evidence obtained provides a reasonable basis for our findings and
conclusions based on our audit objectives.




Treasury’s Contract and Project Management of TNet Was Poor   Page 18

(OIG-11-106)
                 Appendix 2
                 Management Response




See appendix
3 for OIG
Clarifications
to
Management
Comments and
Observations




                 Treasury’s Contract and Project Management of TNet Was Poor   Page 19

                 (OIG-11-106)
Appendix 2
Management Response




Treasury’s Contract and Project Management of TNet Was Poor   Page 20

(OIG-11-106)
                  Appendix 2
                  Management Response




See appendix 3
for OIG
Clarification 1




See appendix 3
for OIG
Clarification 2




See appendix 3
for OIG
Clarification 3




                  Treasury’s Contract and Project Management of TNet Was Poor   Page 21

                  (OIG-11-106)
                  Appendix 2
                  Management Response




See appendix 3
for OIG
Clarification 4




See appendix 3
for OIG
Clarification 5




                  Treasury’s Contract and Project Management of TNet Was Poor   Page 22

                  (OIG-11-106)
Appendix 3
Office of Inspector General (OIG) Clarifications to Management Comments and
Observations




The Treasury Chief Information Officer (CIO) provided general
comments and observations contained in the management
response (see appendix 2) for our consideration. Our clarifications
to the comments made in the management response to the draft
report are found below.

Management Comment 1

Comment regarding “page [8], [last] paragraph - Absence of
Defined Security Requirements - The TNet statement of work did
not identify the applicable security category for this information
system. Specifically, it did not include the National Institute of
Standards and Technology Federal Information Processing
Standards (FIPS) 199 security category.”

The security category was defined as moderate in the AT&T
General Services Administration (GSA) Networx universal contract.
Therefore, the security category for Treasury Network (TNet) was
initially defined as moderate since TNet is a task order under this
base contract. At the time of the release of the request for quote
and the subsequent award of the task order, a security level higher
than moderate was not required.

OIG Clarification 1

Based on the work that we performed during the audit, we found
that the Networx security category was not defined within GSA’s
Networx universal contract. The GSA official informed us that the
acquiring agency needed to specify the overall security category for
the system being procured in the specific task order under the
Networx universal contract. Finally, AT&T executives also told us
that the Networx universal contract did not identify the security
category. It should be noted that based on the statement of work,
TNet was to provide Treasury with functions and services at least
equal to those provided by Treasury Communications Systems
(TCS). TCS’s overall security category was high. Therefore, the
statement of work for the TNet contract should have identified the
overall security category requirement of TNet as high.



Treasury’s Contract and Project Management of TNet Was Poor           Page 23

(OIG-11-106)
Appendix 3
Office of Inspector General (OIG) Clarifications to Management Comments and
Observations




Management Comment 2

Comment regarding “page [9], [last] paragraph - No Delivery Date
for the TNet certification and accreditation (C&A) Package -
Treasury did not specify the deliverable date for the TNet C&A
package in the statement of work. As a result, there was no
contractual requirement for AT&T to deliver it in a timely
manner.”

The original task order included a delivery date for the C&A
package. In accordance with the TNet task order, Section 1.2,
"Summary of Deliverables Plan," required the C&A plan to be
provided to the government within 30 days of task order notice to
proceed.

OIG Clarification 2

The TNet original task order did specify a delivery date for the C&A
plan, 30 days after task order notice to proceed or with the Final
Transition Plan. However, there was no specified delivery date for
the associated C&A documentation. To be clear, a C&A plan
generally identifies the roles and responsibilities for accrediting the
system and forms the basis for the activities to be performed and
documents to be produced. This C&A plan is not the same as a
C&A package, which includes C&A documentation; a full C&A
package is required before the authorizing official can issue an
authorization to operate. Additionally, the TNet original task order
also required that the C&A documentation, as defined within the
National Institute of Science and Technology Special Publication
800 series, be delivered to the government 15 working days in
advance of the C&A due date. However, the C&A due date was
not specified in the original TNet task order.

Management Comment 3

Comment regarding “page [11], [last] paragraph - Treasury
Assumed Responsibility for TNet Contractor Delays - Treasury
issued task order modifications that extended deliverable dates
without determining whether the delays were caused by
inadequate contractor performance.”

Treasury’s Contract and Project Management of TNet Was Poor           Page 24

(OIG-11-106)
Appendix 3
Office of Inspector General (OIG) Clarifications to Management Comments and
Observations




The TNet contracting officer in coordination with the TNet Program
Management Office, extended deliverable dates when determined
to be in the best interest of the government. At no time during the
transition period was it determined by the TNet contracting officer,
in coordination with the TNet contracting officer technical
representative and TNet Program Management Office, that there
were any delays that could be solely attributed to the performance
of AT&T.

OIG Clarification 3

Based on our work, we believe that the delays could be directly
attributed to contractor performance. As discussed in the body of
this report under the section entitled “Treasury Assumed
Responsibility for TNet Contractor Delays,” we identified a number
of examples where AT&T’s performance, or lack thereof, resulted
in delays to the contract.

Management Comment 4

Comment regarding “page [13], last paragraph - Treasury Assumed
Responsibility for TNet Contractor Delays - In summary, AT&T's
TNet Transition Plan and subsequent revisions were included in the
task order by reference, and therefore, we believe that the C&A
package submission date of October 21, 2008, specified in AT&T's
TNet Transition Plan Version 2.0, was enforceable.”

In August 2008, the Treasury Chief Information Officer determined
that the TNet security level must be increased from moderate to
high. This change in the security categorization requirement
prompted a modification to the GSA Networx universal contract
and a modification to the Treasury task order, and ultimately
caused AT&T to have to modify its C&A package. Therefore, it
was not considered prudent to enforce the government's
contractual rights on a deliverable based on a moderate security
level. AT&T provided its high security level proposal in November
2008 and it was accepted by Treasury in June 2009.



Treasury’s Contract and Project Management of TNet Was Poor           Page 25

(OIG-11-106)
Appendix 3
Office of Inspector General (OIG) Clarifications to Management Comments and
Observations




OIG Clarification 4

We believe that the C&A package submission date of October 21,
2008, specified in AT&T’s TNet Transition Plan Version 2.0, was
enforceable.

Management Comment 5

Comment regarding page 4, middle paragraph, second to the last
sentence. “It became more important to the responsible officials to
keep the contractor in place, regardless of the costs or
consequences to the government, than to take the proper steps to
either obtain satisfactory performance from the contractor or to
terminate the contract.”

This statement is inaccurate and it does not reflect the risk-based
assessments that Treasury officials performed in deciding to
maintain the contract. There were no remedies in the service level
agreement available to Treasury to change the performance short
of termination. Accordingly, Treasury determined that it was
preferable to implement a more disciplined program management
approach to drive the implementation forward rather than terminate
the contract and start from scratch.

OIG Clarification 5

Based on our review, there was no documentation provided to
evidence that Treasury management conducted a risk-based
assessment as to whether or not to maintain the contract. In fact,
the supporting documentation for modification number 24 states,
“throwing in the penalty language may just make this more
contentious and put AT&T on the defensive,” demonstrating
management’s reluctance to take the steps that were necessary to
obtain satisfactory performance from the contractor.




Treasury’s Contract and Project Management of TNet Was Poor           Page 26

(OIG-11-106)
Appendix 4
Major Contributors to This Report




   Office of Information Technology (IT) Audit

      Tram J. Dang, Audit Director
      Abdirahman M. Salah, IT Audit Manager
      Larissa Klimpel, IT Specialist
      Kevin Mfume, IT Specialist
      Katherine E. Johnson, Referencer




Treasury’s Contract and Project Management of TNet Was Poor   Page 27

(OIG-11-106)
Appendix 5
Report Distribution




Department of the Treasury

   Office of the Chief Information Officer
   Office of Accounting and Internal Control
   Office of Strategic Planning and Performance Management


Office of Management and Budget

   Office of Inspector General Budget Examiner




Treasury’s Contract and Project Management of TNet Was Poor   Page 28

(OIG-11-106)
